No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JESUS MANUEL ANCHANDO-QUEZADA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

Christopher Curtis
Assistant Federal Public Defender
Federal Public Defender's Office
Northern District of Texas
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Chris_Curtis@fd.org

APPENDIX TABLE OF CONTENTS
APPENDIX

DOCUMENT DESCRIPTION

APPENDIX PAGE RANGE

App. A

Judgment and Opinion of the United
States Court of Appeals for the Fifth Circuit.
United States of America v. Anchondo-Quezada,
No. 20-10552

1-3

App. B

Judgment and Sentence of the United States
District Court for the Northern District of Texas.
United States of America v. Anchondo-Quezada,
USDC No. 4:20-CR-25-O

1-4

APPENDIX A

Case: 20-10552

Document: 00515668945

Page: 1

Date Filed: 12/10/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
December 10, 2020

No. 20-10552
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jesus Manuel Anchondo-Quezada, also known as Jesus
Gomez-Gomez, also known as Jesus Manuel AnchandoQuezada,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CR-25-1
____________________________
Before Davis, Stewart, and Dennis, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10552

Document: 00515668928

Page: 1

Date Filed: 12/10/2020

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-10552
Summary Calendar

December 10, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Jesus Manuel Anchondo-Quezada, also known as Jesus
Gomez-Gomez, also known as Jesus Manuel AnchandoQuezada,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CR-25-1
Before Davis, Stewart, and Dennis, Circuit Judges.
Per Curiam:*
Jesus Manuel Anchondo-Quezada appeals the 30-month, withinguidelines sentence imposed following his guilty plea for illegal reentry after
removal from the United States.

He contends that his sentence is

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10552

Document: 00515668928

Page: 2

Date Filed: 12/10/2020

No. 20-10552

unconstitutional because his indictment alleged only those facts sufficient for
a conviction under 8 U.S.C. § 1326(a) and did not include any allegations of
a prior conviction necessary for a sentence enhancement under § 1326(b)(1).
Relatedly, he asserts that his guilty plea was involuntary and that the district
court violated Federal Rule of Criminal Procedure 11(b)(1)(G) because it did
not admonish him that the fact of a prior conviction is an essential element of
the offense. Thus, Anchondo-Quezada requests that we vacate the sentence
and remand for resentencing under § 1326(a). He concedes that these
arguments are foreclosed by Almendarez-Torres v. United States, 523 U.S.
224, 226-27 (1998), but he seeks to preserve the issues for further review.
The Government filed an unopposed motion for summary affirmance in
which it agrees that the issues are foreclosed and, in the alternative, a motion
for an extension of time to file a brief.
In Almendarez-Torres, 523 U.S. at 239-47, the Supreme Court held
that, for purposes of a statutory sentencing enhancement, a prior conviction
is not a fact that must be alleged in the indictment or found by a jury beyond
a reasonable doubt. This court has held that subsequent Supreme Court
decisions did not overrule Almendarez-Torres. See United States v. Wallace,
759 F.3d 486, 497 (5th Cir. 2014) (considering the effect of Alleyne v. United
States, 570 U.S. 99 (2013)); United States v. Pineda-Arrellano, 492 F.3d 624,
625-26 (5th Cir. 2007) (considering the effect of Apprendi v. New Jersey, 530
U.S. 466 (2000)).

Therefore, Anchondo-Quezada’s arguments are

foreclosed, and summary affirmance is appropriate. See Groendyke Transp.,
Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgment of the district court is AFFIRMED. The
Government’s alternative motion for an extension of time to file a brief is
DENIED as moot.

2

App. A 003

APPENDIX B

Case 4:20-cr-00025-O Document 31 Filed 06/02/20

Page 1 of 4 PageID 73

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:20-CR-00025-O(01)
U.S. Marshal’s No.: 59950-177
Aisha Saleem for Michael Levi Thomas,
Assistant U.S. Attorney
Michael Lehmann, Attorney for the Defendant

JESUS MANUEL ANCHONDO-QUEZADA

On February 18, 2020 the defendant, JESUS MANUEL ANCHONDO-QUEZADA, entered a plea of
guilty as to Count One of the Indictment filed on January 28, 2020. Accordingly, the defendant is adjudged guilty
of such Count, which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(1)

Illegal Reentry After Deportation

6/3/2018

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on January 28, 2020.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.
Sentence imposed June 1, 2020.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE
Signed June 2, 2020.

App. B 001

Case 4:20-cr-00025-O Document 31 Filed 06/02/20

Page 2 of 4 PageID 74

Judgment in a Criminal Case
Defendant: JESUS MANUEL ANCHONDOQUEZADA
Case Number: 4:20-CR-00025-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, JESUS MANUEL ANCHONDO-QUEZADA, is hereby committed to the custody of the
Federal Bureau of Prisons (BOP) to be imprisoned for a term of THIRTY (30) months as to Count One of the
Indictment filed on January 28, 2020.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
THREE (3) years as to Count One of the Indictment filed on January 28, 2020.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the defendant
shall be surrendered to a duly-authorized immigration official for deportation in accordance with the established
procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further condition of
supervised release, if ordered deported or removed, the defendant shall remain outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
App. B 002

Case 4:20-cr-00025-O Document 31 Filed 06/02/20

Page 3 of 4 PageID 75

Judgment in a Criminal Case
Defendant: JESUS MANUEL ANCHONDOQUEZADA
Case Number: 4:20-CR-00025-O(1)

(10)
(11)
(12)
(13)

Page 3 of 4

permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from custody
of the Federal Bureau of Prisons, or in which the defendant makes entry into the United States, within 72
hours of release or entry; and,
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test within
15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
court.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

App. B 003

Case 4:20-cr-00025-O Document 31 Filed 06/02/20

Page 4 of 4 PageID 76

Judgment in a Criminal Case
Defendant: JESUS MANUEL ANCHONDOQUEZADA
Case Number: 4:20-CR-00025-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.
United States Marshal
BY
Deputy Marshal

App. B 004

